                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-C-13-51                                   Office of Inspections                                September 2013




            Compliance Followup Review of the
  Bureau of Educational and Cultural Affairs




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.


                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                  PURPOSE, SCOPE, AND METHODOLOGY
                 OF THE COMPLIANCE FOLLOWUP REVIEW


This inspection was conducted in accordance with the Quality Standards for Inspection and
Evaluation, as issued in 2012 by the Council of Inspectors General on Integrity and Efficiency,
and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for the U.S.
Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

        The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Compliance Followup Reviews (CFR) cover three broad areas, consistent with Section
209 of the Foreign Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

        The Office of Inspections may perform on-site CFRs to verify whether agreed-upon
corrective actions for recommendations issued in previous reports were fully and properly
implemented and to provide OIG with a quality assurance assessment of its work.

METHODOLOGY

        In conducting this CFR, the inspectors have: 1) reviewed the previous inspection report and
the reported corrective actions; 2) distributed survey instruments to inspected entity(s) and
compiled and analyzed the results to measure and report changes in the period between the
previous inspection and this CFR; 3) conducted on-site interviews and reviewed and collected
documentation to substantiate reported corrective actions; 4) addressed new, significant
deficiencies or vulnerabilities identified in the CFR survey results and during the course of the on-
site CFR and, where appropriate, issued new recommendations; and, 5) discussed the substance of
the draft CFR report at the final meeting with the head of the inspected bureau/office or post.



                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Acting Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                      1
Context                                                            2
Evaluation of Compliance                                           4
Knowledge Management                                               5
Information Management and Technology                              6
   Information Technology Budget                                   6
   Strategic Planning                                              6
   Position Descriptions                                           7
   Systems Development Life Cycle Process                          7
Private-Sector Exchanges                                           9
   Office of Private Sector Exchange                               9
Secondary School Students                                         12
Resource Management                                               13
   Office of the Executive Director                               13
List of CFR Recommendations                                       15
Principal Officials                                               17
Abbreviations                                                     18
APPENDIX I: Status of 2012 Inspection Formal Recommendations      19
APPENDIX II: Status of 2012 Inspection Informal Recommendations   34




                                    iii
                       SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Bureau of Educational and Cultural Affairs has complied with most of the 78 formal
       and 34 informal recommendations from the February 2012 inspection by the Office of
       Inspector General. Twelve formal recommendations remain open; they have been
       reissued. Three new recommendations were issued. Three informal recommendations
       were revised and reissued as formal recommendations.

   •   Since the 2012 inspection, the bureau has improved internal communications and
       developed a strategic planning process.

   •   The bureau has no uniform standard for collecting data, making it difficult to quantify the
       foreign policy relevance of its work. It needs to develop such a standard.

   •   The bureau should commission a knowledge management review by outside experts to
       develop a plan to optimize its workflows and data models.

   •   The bureau has no budget line item for approximately $15 million in information
       technology expenditures. This hampers efforts at strategic planning and prioritizing
       functions, while adding challenges to project planning and contract management.

   •   Systems development is occurring outside the information technology division, resulting
       in systems that are not integrated with the division’s applications and data that cannot be
       shared easily.

   •   The bureau has improved its oversight of the Summer Work Travel program through
       stricter regulations, limits on the number of sponsors, and site visits to placement
       locations. The bureau must continue to build on these initial efforts.

   •   The grants division made progress implementing standard procedures for grants
       processing.


The compliance follow up review took place in Washington between July 1 and August 2, 2013.
Ambassador Maura A. Harty (team leader), Michael Hurley (deputy team leader), Joyce Wong,
Karen Davidson, Matthew Ragnetti, and Marygale Akpan conducted the review.




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
       The February 2012 inspection report of the Bureau of Educational and Cultural Affairs
(ECA) noted challenges in a number of areas. It also noted that bureau leadership was responsive
to recommendations made in the report. Since then, ECA staff members have built a solid
foundation, using the report as a guide to identify and overcome pressing challenges. The
recommendations in this compliance followup review (CFR) offer a roadmap to build on what
they have accomplished.

        ECA has improved internal communications by instituting town hall meetings and
division and section off-sites. It has also formed crosscutting working groups to implement
bureauwide solutions. Leadership rightly identifies knowledge management as a critical unmet
need, one made particularly difficult by the existence of distinct systems designed to meet the
unique management needs of ECA’s 140 highly specialized programs. Inadequate knowledge
management complicates ECA’s ability to quantify the relevance of its public diplomacy
activities for audiences on the Hill and within the Department of State (Department). The bureau
needs to create a data collection system that is standardized but still meets individual program
needs.

        Summer Work Travel (SWT) is a 50-year-old program that provides young foreign
students an opportunity to see the United States and engage in cultural exchange activities while
working during their summer holidays. In response to deserved criticism, Secretary Clinton
approved “Keep It. Cap It. Fix It,” an approach that has strengthened oversight and management
of the program. SWT is now smaller and better regulated. ECA has fostered closer partnerships
within the interagency community, including law enforcement agencies, and continues to
strengthen its standard operating procedures and oversight mechanisms. It has restructured the
Office of Private Sector Exchanges so that staff can better monitor the performance of exchange
program sponsors. More work remains to be done, but the bureau has demonstrated its
commitment to strengthening the program.

         ECA is again in transition, as is the entire Office of the Under Secretary for Public
Diplomacy and Public Affairs family. The Under Secretary for Public Diplomacy and Public
Affairs was vacant at the time of the CFR. ECA’s Assistant Secretary left in August 2013. The
principal deputy assistant secretary left in July 2013, with no replacement identified; his
departure left the bureau without a career deputy assistant secretary. The changes in leadership
form a pattern in public diplomacy’s history. Two earlier inspection teams, first in 2004 1 and
more recently in 2013 2 (a report that focused on the Bureau of International Information
Programs, a sister public diplomacy bureau that is also without a permanent leader), noted a
pattern of frequent senior leadership changes and called for a management review of the public
diplomacy function. This remains a good and important idea. With a new Under Secretary for
Public Diplomacy and Public Affairs and a new assistant secretary, ECA will have the
opportunity to build on the extensive improvements it made in response to the 2012 inspection
report. 3 Additional work on grants, knowledge management, and information technology (IT)


1
  Report of Inspection, Bureau of Educational and Cultural Affairs, OIG Report No. ISP-I-04-07A, March 2004.
2
  Inspection of the Bureau International Information Programs, OIG Report No. ISP-I-13-28, May 2013.
3
  Inspection of the Bureau of Educational and Cultural Affairs, OIG Report No. ISP-I-12-15, February 2012.
                                           2
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

systems, as well as continuing vigilance with respect to private-sector exchanges, should receive
the full attention of incoming leadership.




                                       3
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
        ECA has complied with most of the formal and informal recommendations from the 2012
inspection report. This CFR automatically closed all formal and informal recommendations from
that inspection but also reissued some, as appropriate.

        Of the 78 formal recommendations in the 2012 report, 67 were confirmed implemented
as a result of the CFR. Twelve remain open, or are revised and open, and three are new. There
were 34 informal recommendations issued in the inspection report; 31 are closed by this CFR
and three relating to grants, training, and receiving procedures are revised and reissued.

       There is no classified annex.

      Appendix I of this CFR report provides the complete status of the formal and informal
recommendations issued in the 2012 inspection report.




                                      4
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Knowledge Management
        The Quadrennial Diplomacy and Development Review identified deploying resources in
line with current priorities as one of public diplomacy’s top five strategic objectives. In its
Functional Bureau Strategy, ECA notes the need to “…strategically align resources…through
increased collaboration within ECA.” Over the past decade, ECA’s exchange programs have
become increasingly integrated with policy and, correspondingly, the demand for aggregated,
real-time data on programs and participants has sharply increased. ECA has not met this demand.
There are more than 100 programs in ECA, some operating globally, funded by an annual
appropriation of approximately $600 million. ECA’s programs have a variety of funding sources
and cycles, some based on the calendar year and some on the academic or fiscal year. Each ECA
office administering these programs provides data, when required, based on its real-time
knowledge of the status of its programs and participants, drawing on in-house program
management tools as well as information residing with overseas posts and ECA’s cooperating
agencies. Year-end aggregated data is accurate and complete; however, the differing nature of
the programs and their varying cycles makes automated real-time aggregation of data across
programs challenging. The bureau lacks a systematic and quick way to develop an accurate
picture of the information it collects, and based on that to tie programs to resources in its
strategic planning.

Recommendation CFR 1: The Bureau of Educational and Cultural Affairs should develop
   standardized data on its programs, participants and resources in real time. (Action: ECA)

         During the inspection, management in the joint ECA-Bureau of International Information
Programs (IIP) office of the executive director (ECA-IIP/EX) discussed its efforts to map
business processes over the past few years, determine which processes to automate, and to build
a standard development platform. These efforts are stalled, and the bureau has no assurance that
its systems capture the right sets of data across programs, can facilitate comparisons of data sets,
and accurately report aggregate data across programs. The bureau has not adequately
documented its business processes. ECA leadership is aware of the problem, but without a more
complete understanding of its business processes, including how it captures, modifies, and shares
data, ECA will not be able to make effective use of its existing technology. ECA requires
assistance mapping its business process workflows, modeling its data, and defining its enterprise
architecture so that its information systems better support its needs.

Recommendation CFR 2: The Bureau of Educational and Cultural Affairs should commission
   and complete a knowledge management review by outside experts to define, map, and
   optimize the business process workflows and data models of the bureau. (Action: ECA)




                                       5
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Information Management and Technology
         The 2012 inspection report found an IT division that was rebounding from a period of
reorganization. Though customer service scores were favorable, the unit was struggling to define
its roles and responsibilities. Since that inspection, the division has made substantial progress
implementing recommendations involving organizational structure, contract management, and
Web site content management. As the division better defines its internal processes, it has become
clear that fundamental questions remain involving the role of information technology in ECA’s
business processes. Issues include lack of an established budget line item for the IT division, lack
of an IT strategic plan, and the inability to integrate applications and data models to support
business processes across the bureau.

Information Technology Budget

        ECA depends heavily on technology to manage and deliver its services, with some 49
registered systems and approximately $15 million in annual expenditures. Yet, its IT division has
no line item in the bureau budget. IT expenses are funded by using such sources as unspent funds
from programs and projects that are planned but not realized, funding from salaries of unfilled
staff positions, and end-of-year money. This uncertain operating environment makes it difficult
to provide ongoing quality service on a large scale, much less to have the flexibility to respond to
ad hoc requests or contingencies. The lack of a defined budget makes strategic planning and
prioritizing difficult, and adds challenges to project planning and contract management.

Recommendation CFR 3: The Bureau of Educational and Cultural Affairs should create a line
   item in its operating budget for information technology. (Action: ECA)

Strategic Planning

        The 2012 inspection found that ECA management had not defined long-term goals and
strategic direction for IT services. This condition remains. While the division has completed a
catalog of IT services, it has made little progress developing a strategic plan, citing a lack of
resources for such a task given daily exigencies like failing servers. A strategic plan would help
management align available resources and services. The process of developing a strategic plan
can identify stakeholders and customers of IT services and ensure that their requirements are
adequately reflected in IT division priorities. Likewise, vetting the plan with stakeholders and
senior management can help to secure necessary resources and establish acceptance and buy-in
for the strategic direction. Recommendation 68 is reissued.

Recommendation CFR 4: The Bureau of Educational and Cultural Affairs should disseminate
   a strategic plan with long-term goals for the information technology division within the
   executive office. (Action: ECA)




                                       6
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

    Position Descriptions

            The 2012 inspection report found that staff members who had transitioned to ECA-
    IIP/EX from IIP had not received revised position descriptions and official notification of
    personnel action. In the 21 months following transition, only two employees received revised
    position descriptions. Such tasks get lower priority than the daily operational needs of the office.
    Nevertheless, the lack of official position descriptions affects the division’s ability to hold
    employees accountable for their performance and may result in duplication of efforts or unmet
    management expectations. Recommendation 65 is reissued.

     Recommendation CFR 5: The Bureau of Educational and Cultural Affairs should provide all
        information technology staff transferred to the executive office with revised notification of
        personnel action forms and position descriptions that are accurate, up to date, and reflect
        newly defined roles and responsibilities. (Action: ECA)

    Systems Development Life Cycle Process

            The 2012 inspection report noted that ECA was not using the systems development life
    cycle process effectively as a management tool, a problem that has not been resolved. The IT
    division uses a development process based on the Carnegie Mellon Capability Maturity Model,
    modified over a number of years to adapt to the development environment in ECA. The process
    is rigorous, well documented, and available to all division staff, with high-level conceptual
    documents down to individual templates and computer-based training modules for many of the
    steps. A review of numerous project SharePoint sites found that IT division staff are adhering to
    the process and completing the documentation, with adequate stakeholder involvement and
    control gate review. However, this is true only of systems developed by the IT division.

            The 2012 inspection report noted that “…program offices complained that IT staff does
    not understand their requirements and develops applications and systems that do not support
    their business functions…[Redacted] (b) (5)
    [Redacted] (b) (5)                                         Systems development occurring
    outside the IT division was a problem then and remains one today. [Redacted] (b) (5)
[Redacted] (b) (5)




[Redacted] (b) (5)
                                         Recommendations 74 and 75 are reissued.

     Recommendation CFR 6: The Bureau of Educational and Cultural Affairs should coordinate
        and manage all systems and applications development activities occurring outside the
        executive office through the information technology division. (Action: ECA)


                                            7
                               SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 7: The Bureau of Educational and Cultural Affairs should implement
   and enforce the systems development life cycle process for all bureau systems and
   applications to include, at a minimum, the identification of user and system requirements
   and consultation with stakeholders and the review by management of deliverables at each
   control gate throughout the process. (Action: ECA)




                                     8
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Private-Sector Exchanges
Office of Private Sector Exchange

Improvements to the Summer Work Travel Program

      The 2012 inspection report noted that the expansion of J visa programs, most notably of
the SWT program, created a monitoring challenge that ECA was unable to meet.

        Since the inspection, ECA has taken numerous steps to gain greater control of the SWT
program and to protect the well-being of its participants. ECA issued a Federal Register notice to
cap the number of participants and sponsors at 2011 levels and two interim final rules to
supplement and strengthen existing SWT regulations. These actions led to a decrease in the
number of SWT participants from 109,000 in 2011 to 91,600 in 2012. Projections are for a
further drop to approximately 80,000 participants in 2013. Among other improvements, stronger
regulatory controls prohibit positions declared hazardous to youth by the Secretary of Labor, or
that require work predominantly between 10:00 p.m. and 6:00 a.m. ECA has supplemented the
after-hours emergency resources available to SWT and other J visa program participants with a
24-hour duty officer. In addition, the Bureau of Diplomatic Security, the Bureau of Consular
Affairs, and diplomats-in-residence at various U.S. universities, together with ECA, conducted
770 site visits in 2012, with ongoing visits in 2013. Such efforts should continue.

        In strengthening its oversight of the SWT program, ECA has accumulated several helpful
lessons. It has begun reviewing other J visa categories, and is finalizing plans to impose a
moratorium on program expansion in the intern/trainee category in fall 2013. Recommendation
30 is revised and reissued.

Recommendation CFR 8: The Bureau of Educational and Cultural Affairs should schedule and
   execute a comprehensive review of each visitor exchange program category to determine
   whether any regulatory reform is required. (Action: ECA)

        The Office of Private Sector Exchange handles designation, program administration, and
compliance for more than 1,450 program sponsors authorized to facilitate programs in the 15 J
visa categories. Sponsors include governmental, nonprofit, and for-profit organizations. Except
for Federal government sponsors, which cover the expenses of their programs’ participants, other
sponsors and their overseas representatives set fees according to what the market will bear.
Participants, especially those in private-sector operated programs, such as alien physician, au
pair, camp counselor, intern, secondary school student, SWT, teacher, and trainee, do not always
have a clear sense of what the fees cover and frequently pay additional, unanticipated expenses.
ECA has begun a series of meetings with sponsors to discuss ways to increase fee transparency.
Recommendation 31 is revised and reissued.

Recommendation CFR 9: The Bureau of Educational and Cultural Affairs should revise
   regulations for J visa programs to require U.S. sponsors to publicly disclose all fees which
   they and their overseas partners charge exchange visitor participants. (Action: ECA)



                                       9
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Oversight Still Required

        A 2007 external study commissioned by ECA recommended that audits be required for
sponsors in all programs, which the OIG team continues to believe are necessary. Despite
preliminary work on a draft interim final rule, ECA has not expanded the use of audits in any
other program as previously recommended. Recommendation 35 is reissued.

Recommendation CFR 10: The Bureau of Educational and Cultural Affairs, in coordination
   with the Office of the Legal Adviser, should implement an annual program audit
   requirement for designated sponsors in every J visa program. (Action: ECA, in coordination
   with L)

Review of Use of J Visas for Work Programs

        The 2012 inspection noted that in several private-sector exchange categories (e.g., alien
physician, teacher, au pair, intern and trainee), non- U.S. citizens coming to the United States
with J visas may stay for periods between 4 months and 7 years. Unlike H1B/H2B nonimmigrant
and employment-based immigrant visa programs, J visa programs do not require a Department of
Labor analysis of American labor market conditions. Neither are J visas subject to the statutory
numerical limitations that apply to H visas. Critics of J visa programs claim that the lack of any
labor market analysis and a concomitant adjustment of these programs’ scale and scope
negatively affect American workers. Still others question the degree of cultural exchange in J
visa programs and whether some are simply vehicles for importing low-cost labor into the United
States. If certain J visa categories are not primarily cultural exchanges, they should have a
different visa designation and either be transferred to another Federal agency that has the
requisite expertise or discontinued. ECA has consulted the Department of Labor on the
appropriate oversight agency for these private-sector exchange programs, but has yet to seek
higher-level guidance within the Department. Recommendation 36 is reissued.

Recommendation CFR 11: The Bureau of Educational and Cultural Affairs, in coordination
with the Bureau of Consular Affairs, the Office of the Legal Adviser, and the Bureau of
Legislative Affairs, should submit a proposal to the Deputy Secretary for Resources and
Management to determine the viability of ending or transferring its current responsibilities for
the alien physician, au pair, intern, teacher, and trainee programs to the Department of Labor.
(Action: ECA, in coordination with CA, L, and H)

Benefits of Systematic Information Sharing

         Many of ECA’s designated sponsors participate in multiple privately funded programs.
Some receive grants from ECA or other U.S. Government entities for a variety of exchange
activities. Yet ECA has no mechanism for systematically gathering relevant information from
other government entities concerning the performance of these sponsors. ECA has started to
reach out to other Department and U.S. Government entities, including those that provide grants
for a variety of activities. These initial contacts increase the likelihood of that ECA will learn of
sponsor problems uncovered by other U.S. Government offices. However, there is no mechanism
to ensure sharing of adverse information. Recommendation 41 is revised and reissued.


                                        10
                           SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 12: The Bureau of Educational and Cultural Affairs should implement
   a procedure for gathering relevant information on its designated sponsors from other
   Department of State and U.S. Government entities. (Action: ECA)




                                   11
                      SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Secondary School Students
       OIG recommended in its 2012 report that the Office of the Legal Adviser, in coordination
with ECA and the Bureau of Diplomatic Security, should determine whether host-family names
can be checked against law enforcement databases. If so, those offices should develop a
procedure for such checks.

       The Office of the Legal Adviser has made some progress in coordinating with these
bureaus to identify the most effective and accurate host-family background checks, but it has not
completed consultations to determine what might be feasible. Recommendation 39 is reissued.

Recommendation CFR 13: The Office of the Legal Adviser, in coordination with the Bureau
   of Educational and Cultural Affairs and the Bureau of Diplomatic Security, should continue
   to determine whether host family names can be checked against law enforcement databases
   and, if so, implement a procedure for such checks. (Action: L, in coordination with ECA
   and DS)




                                       12
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
Office of the Executive Director

        Since the 2012 inspection report, ECA-IIP/EX has experienced major leadership changes.
The new executive director recently arrived, and both deputies have less than one year on the
job. In addition, the grants, procurement, and support services divisions have new chiefs. The
new ECA-IIP/EX staff expressed a commitment to implement standardized procedures, improve
customer service, and strengthen management controls.

Acquisition Planning

        The 2012 inspection identified examples of poor acquisition planning for ECA projects.
Unrealistic project deadlines often resulted in insufficient time for a thorough planning process.
Regulations in 14 Foreign Affairs Manual (FAM) 221.1, the Department of State Acquisition
Regulation Part 607 and the Federal Acquisition Regulation Part 7 require advance acquisition
planning. Unplanned procurements result in limited competition, hastily prepared statements of
work that do not fulfill requirements, and waste of government funds and staff time. In response
to the OIG report, ECA-IIP/EX developed a basic acquisition plan template; however, no written
procedures or examples of successful plans have been prepared to guide acquisition planning.
The procurement division plans to establish a section on the ECA-IIP/EX SharePoint site for
policies and examples and to conduct a series of training sessions for ECA program offices to
improve acquisition planning. Recommendation 16 is revised and reissued.

Recommendation CFR 14: The Bureau of Educational and Cultural Affairs, in coordination
   with the Bureau of Administration, Office of the Procurement Executive, should implement
   acquisition planning procedures and train program offices on the process. (Action: ECA, in
   coordination with A)

Accident and Sickness Program for Exchanges

       The 2012 inspection noted unsustainable cost increases for health benefits covering
exchange program participants under 10 FAM 240 and recommended that ECA examine ways to
contain costs in the future. In FY 2012, ECA paid $6.5 million in claims, up from $6 million in
FY 2011. High health benefit costs reduce funding available for ECA programs. An ECA
working group, with participation from the Office of the Legal Adviser, continues to review the
program, but has not reached conclusions for consideration by the Under Secretary for Public
Diplomacy and Public Affairs. Recommendation 61 is reissued.

Recommendation CFR 15: The Bureau of Educational and Cultural Affairs, in coordination
   with the Office of the Legal Adviser, should submit a proposal to the Under Secretary for
   Public Diplomacy and Public Affairs for approval to make the accident and sickness
   program for exchanges more cost effective. (Action: ECA, in coordination with L)




                                       13
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Performance Evaluations of Grants Officer Representatives

        The 2012 inspection report found that ECA did not have a system for grants officers to
contribute to the performance evaluations of grants officer representatives on their complex
duties and responsibilities outlined in Grants Policy Directive Number 16. In response, the ECA
grants division plans to develop performance metrics for grants officers to use in supplying
feedback to supervisors of grants officer representatives. The bureau expects to complete this
project by summer 2014. Informal recommendation 20 is reissued as a formal recommendation.

Recommendation CFR 16: The Bureau of Educational and Cultural Affairs, in coordination
   with the Bureau of Administration, Office of the Procurement Executive, should create a
   mechanism for warranted grants officers to provide input for performance evaluations of
   grants officer representatives. (Action: ECA, in coordination with A)

Bureau Training Plan

        Since the 2012 inspection report, ECA has not made progress developing a bureauwide
training program as required by 13 FAM 022.3 – 022.5. Without a bureau training plan,
employees may miss opportunities for job skills training and professional development required
to achieve bureau and Department goals. The bureau recently hired a new training officer with
responsibility for creating and implementing a bureau training program. Informal
recommendation 28 is reissued as a formal recommendation.

Recommendation CFR 17: The Bureau of Educational and Cultural Affairs should implement
   a bureauwide training plan tied to achieving its performance goals and mandate use of
   individual development plans to help populate the overall training plan. (Action: ECA)

Receiving

       As found in the 2012 OIG report, ECA does not have written procedures to ensure
property is received according to the requirements of 14 Foreign Affairs Handbook (FAH)-1 H-
321. Lax receiving processes could result in improper payments for goods and incomplete
accountable property records. Informal recommendation 32 is reissued as a formal
recommendation.

Recommendation CFR 18: The Bureau of Educational and Cultural Affairs should complete
   the codification and dissemination of receiving procedures. (Action: ECA)




                                      14
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of CFR Recommendations

Recommendation CFR 1: The Bureau of Educational and Cultural Affairs should develop
standardized data on its programs, participants and resources in real time. (Action: ECA)

Recommendation CFR 2: The Bureau of Educational and Cultural Affairs should commission
and complete a knowledge management review by outside experts to define, map, and optimize
the business process workflows and data models of the bureau. (Action: ECA)

Recommendation CFR 3: The Bureau of Educational and Cultural Affairs should create a line
item in its operating budget for information technology. (Action: ECA)

Recommendation CFR 4: The Bureau of Educational and Cultural Affairs should disseminate
a strategic plan with long-term goals for the information technology division within the
executive office. (Action: ECA)

Recommendation CFR 5: The Bureau of Educational and Cultural Affairs should provide all
information technology staff transferred to the executive office with revised notification of
personnel action forms and position descriptions that are accurate, up to date, and reflect newly
defined roles and responsibilities. (Action: ECA)

Recommendation CFR 6: The Bureau of Educational and Cultural Affairs should coordinate
and manage all systems and applications development activities occurring outside the executive
office through the information technology division. (Action: ECA)

Recommendation CFR 7: The Bureau of Educational and Cultural Affairs should implement
and enforce the systems development life cycle process for all bureau systems and applications
to include, at a minimum, the identification of user and system requirements and consultation
with stakeholders and the review by management of deliverables at each control gate throughout
the process. (Action: ECA)

Recommendation CFR 8: The Bureau of Educational and Cultural Affairs should schedule
and execute a comprehensive review of each visitor exchange program category to determine
whether any regulatory reform is required. (Action: ECA)

Recommendation CFR 9: The Bureau of Educational and Cultural Affairs should revise
regulations for J visa programs to require U.S. sponsors to publicly disclose all fees which they
and their overseas partners charge exchange visitor participants. (Action: ECA)

Recommendation CFR 10: The Bureau of Educational and Cultural Affairs, in coordination
with the Office of the Legal Adviser, should implement an annual program audit requirement for
designated sponsors in every J visa program. (Action: ECA, in coordination with L)

Recommendation CFR 11: The Bureau of Educational and Cultural Affairs, in coordination
with the Bureau of Consular Affairs, the Office of the Legal Adviser, and the Bureau of
Legislative Affairs, should submit a proposal to the Deputy Secretary for Resources and
Management to determine the viability of ending or transferring its current responsibilities for

                                       15
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

the alien physician, au pair, intern, teacher, and trainee programs to the Department of Labor.
(Action: ECA, in coordination with CA, L, and H)

Recommendation CFR 12: The Bureau of Educational and Cultural Affairs should implement
a procedure for gathering relevant information on its designated sponsors from other Department
of State and U.S. Government entities. (Action: ECA)

Recommendation CFR 13: The Office of the Legal Adviser, in coordination with the Bureau
of Educational and Cultural Affairs and the Bureau of Diplomatic Security, should continue to
determine whether host family names can be checked against law enforcement databases and, if
so, implement a procedure for such checks. (Action: L, in coordination with ECA and DS)

Recommendation CFR 14: The Bureau of Educational and Cultural Affairs, in coordination
with the Bureau of Administration, Office of the Procurement Executive, should implement
acquisition planning procedures and train program offices on the process. (Action: ECA, in
coordination with A)

Recommendation CFR 15: The Bureau of Educational and Cultural Affairs, in coordination
with the Office of the Legal Adviser, should submit a proposal to the Under Secretary for Public
Diplomacy and Public Affairs for approval to make the accident and sickness program for
exchanges more cost effective. (Action: ECA, in coordination with L)

Recommendation CFR 16: The Bureau of Educational and Cultural Affairs, in coordination
with the Bureau of Administration, Office of the Procurement Executive, should create a
mechanism for warranted grants officers to provide input for performance evaluations of grants
officer representatives. (Action: ECA, in coordination with A)

Recommendation CFR 17: The Bureau of Educational and Cultural Affairs should implement
a bureauwide training plan tied to achieving its performance goals and mandate use of individual
development plans to help populate the overall training plan. (Action: ECA)

Recommendation CFR 18: The Bureau of Educational and Cultural Affairs should complete
the codification and dissemination of receiving procedures. (Action: ECA)




                                       16
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                      Name      Arrival Date
Assistant Secretary                                             Ann Stock*             07/10
Principal Deputy Assistant Secretary                                  vacant
Deputy Assistant Secretary for Academic Exchanges            Meghann Curtis           10/11
Deputy Assistant Secretary for Professional Exchanges         Lee Satterfield         04/11
Deputy Assistant Secretary for Private Sector
Exchanges                                                       Robin Lerner          02/12
Director, Policy and Evaluation                         Tania Chomiak-Salvi           06/13
Office of Executive Director                                  Carmen Cantor           04/13
Director, Exchange Coordination and Compliance                  Susan Geary           07/07
Director, Office of Private Sector Designation             David Eckenrode            05/12
Director, Academic Exchange Programs                              Mary Kirk           09/12
Director, English Language Programs                              Marti Estell         08/12
Director, Global Education Programs                            Paul Hiemstra          10/99
Director, Citizen Exchanges                             Mary Deane Conners            10/10
Director, International Visitors                            Alma Candelaria           07/09
Director, Office of Program Administration                       Henry Scott          05/13
Director, Policy and Evaluation Unit, Private Sector             Kevin Saba           06/13

*until 8/2/13




                                      17
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CFR               Compliance Followup Review

Department        U.S. Department of State

ECA               Bureau of Educational and Cultural Affairs

ECA-IIP/EX        Joint ECA-IIP office of the executive director

FAH               Foreign Affairs Handbook

FAM               Foreign Affairs Manual

IIP               Bureau of International Information Programs

IT                Information technology

OIG               Office of Inspector General

SWT               Summer Work Travel




                             18
                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


APPENDIX I: Status of 2012 Inspection Formal
Recommendations
Recommendation 1: The Bureau of Educational and Cultural Affairs should conduct strategic
budget planning exercises for all its program offices using the review in the Office of
Professional and Cultural Exchanges as a model. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 2: The Bureau of Educational and Cultural Affairs should implement a
written plan to hold at least three town hall meetings annually and require all offices that have
not had off-sites in the past 2 years to do so in 2012, perhaps in the context of beginning their
strategic reviews. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 3: The Bureau of Educational and Cultural Affairs should implement a
written policy that requires all office directors to meet with their staffs at least twice monthly and
all senior managers to attend working level meetings and visit individual offices. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 4: The Bureau of Educational and Cultural Affairs should share with all
bureau staff its weekly highlights report to the Under Secretary for Public Diplomacy and Public
Affairs and its weekly senior staff meeting notes. (Action: ECA)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 5: The Bureau of Educational and Cultural Affairs should revise its system
for managing paper flow to achieve a more streamlined process and issue new guidelines to all
bureau staff. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 6: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Under Secretary for Public Diplomacy and Public Affairs, should implement

                                        19
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

programmatic and funding mechanisms so that bureau programs can respond effectively to
urgent policy needs. (Action: ECA, in coordination with R/PPR)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 7: The Bureau of Educational and Cultural Affairs should implement a plan
for overseas public affairs sections, bureau program offices, and implementing partners to
preregister exchange participants on the State Alumni Web site. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 8: The Bureau of Educational and Cultural Affairs should establish standard
operating procedures for program offices and implementing partners to enter exchange
participant data accurately and expeditiously into the appropriate bureau database. (Action:
ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 9: The Bureau of Educational and Cultural Affairs should conduct a needs
assessment to improve the alumni archive and make it more functional for overseas missions.
(Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 10: The Bureau of Educational and Cultural Affairs should implement a
strategic evaluation plan that integrates evaluation systematically into program design, prioritizes
which programs to evaluate and how, and produces reports that provide leadership with
information on which to base resource decisions. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 11: The Bureau of Educational and Cultural Affairs, in coordination with the
Foreign Service Institute, should secure the services of a facilitator to advise the bureau on how
to integrate performance measurement into every bureau program. (Action: ECA, in coordination
with FSI)

       Pre-CFR Status: Open

                                       20
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 12: The Office of the Legal Adviser should request a decision from the
Office of Management and Budget on the extraterritoriality of the Paperwork Reduction Act.
(Action: L)

       Pre-CFR Status: Open

       CFR Findings: The CFR team reviewed and accepted the Office of the Legal Adviser’s
       informal guidance to ECA to comply with the Paperwork Reduction Act as acceptable
       alternate implementation; recommendation closed.

Recommendation 13: The Bureau of Educational and Cultural Affairs should implement a
survey system that meets bureau needs for performance evaluation. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 14: The Bureau of Educational and Cultural Affairs should conduct an
analysis of all its academic exchange programs, drawing upon external as well as internal
sources, issue a report assessing their cost effectiveness, and use this information to establish
funding priorities. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 15: The Bureau of Educational and Cultural Affairs, in coordination with the
regional bureaus, should issue guidelines so that the relevant embassy is included in
communications from the bureau to binational Fulbright commissions; the guidelines should also
advise embassy representatives on binational governing boards of their oversight and
management responsibilities. (Action: ECA, in coordination with EAP, EUR, NEA, SCA, and
WHA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 16: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Under Secretary for Public Diplomacy and Public Affairs, should implement and
adhere to a systematic preacquisition planning process that is in accordance with guidelines from
the Bureau of Administration’s Office of the Procurement Executive. (Action: ECA, in
coordination with R/PPR)

       Pre-CFR Status: Open

       CFR Findings: Revised and reissued as Recommendation CFR 14.
                                        21
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 17: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Administration, should determine whether the educational video game contractor for
the English Access Online program has met the terms of performance under the contracts and, if
not, pursue a remedy. (Action: ECA, in coordination with A)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 18: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Human Resources, should restructure the purchasing agent position, number
S9922600, to include other duties to make full use of the position and better meet the needs of
the English Language Programs office. (Action: ECA, in coordination with DGHR)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 19: The Bureau of Educational and Cultural Affairs, in coordination with the
Foreign Service Institute, should finalize an orientation training program and a training
continuum for regional English language officers. (Action: ECA, in coordination with FSI)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 20: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Consular Affairs and the regional bureaus, should send a cable with appropriate
guidance to U.S. embassies in countries hosting American citizen youth on Department of State-
sponsored exchanges so that mission staff provides a uniform system and level of participant
support and monitoring. (Action: ECA, in coordination with CA, AF, EAP, EUR, NEA, SCA,
and WHA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.


Recommendation 21: The Bureau of Educational and Cultural Affairs should assign to relevant
regional bureaus the responsibility for signing DS-2019 forms for inbound exchange visitor
programs that are initiated and funded by overseas posts. (Action: ECA, in coordination with AF,
EAP, EUR, NEA, SCA, and WHA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team reviewed and accepted ECA’s new procedure for the
       processing of post-initiated DS-2019s as acceptable alternative implementation. Although
       ECA retains signature authority, the new SharePoint-based paperless process to which
                                      22
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       posts, regional bureaus, and ECA all have access and mandatory input ensures
       appropriate roles for each entity. The new procedures will likely work better over time, as
       ECA and its partners master them; recommendation closed.

Recommendation 22: The Under Secretary for Public Diplomacy and Public Affairs, in
coordination with the Bureau of Educational and Cultural Affairs and the regional bureaus,
should conduct a survey to determine the extent of bureau- and embassy-initiated exchange
programs that are not funded by the Bureau of Educational and Cultural Affairs and maintain
those results by designing and implementing a database into which bureaus and embassies can
enter information to be conveyed to resource managers and strategic planners. (Action: R/PPR,
in coordination with ECA, AF, EAP, EUR, NEA, SCA, and WHA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 23: The Bureau of Educational and Cultural Affairs should implement an
online information resource that is easily accessible to embassies and regional bureaus, that will
provide comprehensive management and programmatic guidance for non-bureau-sponsored
exchanges, and that is supplemented by a help desk for direct inquiries. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 24: The Bureau of Educational and Cultural Affairs should respond to
changes in the regional distribution of the workload in its Office of International Visitors by
creating separate branches for South/Central Asia and the Near East and North Africa and by
combining other branches with lesser workloads if necessary. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 25: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Human Resources, should reprogram position number U0166200 from the New York
program branch as a second deputy director in the Office of International Visitors upon departure
of the incumbent. (Action: ECA, in coordination with DGHR)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 26: The Bureau of Educational and Cultural Affairs should include in its
strategic planning efforts a review of the need for a separate Voluntary Visitors division in the
Office of International Visitors. (Action: ECA)

       Pre-CFR Status: Open
                                       23
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 27: The Bureau of Educational and Cultural Affairs should carry out a pilot
program to determine whether the New York program branch of the Office of International
Visitors could effectively support other bureau offices and programs. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 28: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Administration, should implement a method for providing the Office of Language
Services with official feedback on the performance of interpreters and others who escort
international visitors. (Action: ECA, in coordination with A)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 29: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, the Bureau of Resource Management, and the Bureau of Legislative
Affairs, should revise its funding distribution so that designations and compliance staff salaries
do not derive exclusively from fees the bureau receives from the sponsor designation and
Department of Homeland Security’s Student and Exchange Visitor Information System
registration processes. (Action: ECA, in coordination with L, RM, and H)

       Pre-CFR Status: Open

       CFR Findings: The CFR team reviewed and accepted as alternative implementation
       ECA’s new internal controls and flexible staffing programs, as well as its reserve funding
       mechanism, which, taken together, minimize potential conflicts of interest;
       recommendation closed.

Recommendation 30: The Bureau of Educational and Cultural Affairs should establish the
maximum number of sponsor organizations and participants for each J visa program that its
current resources and capacity can manage with appropriate quality controls. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: Revised and reissued as Recommendation CFR 8.

Recommendation 31: The Bureau of Educational and Cultural Affairs should revise regulations
governing all J visa programs to establish the maximum fees sponsors and their overseas
representatives may charge participants. (Action: ECA)

       Pre-CFR Status: Open

                                       24
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       CFR Findings: Revised and reissued as Recommendation CFR 9.

Recommendation 32: The Bureau of Educational and Cultural Affairs should implement a plan
to conduct on-site reviews of every sponsoring organization at least once every 2 years as part of
the redesignation process, increasing designation fees as necessary to defray travel and per diem
costs. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team accepted as alternative implementation ECA’s risk
       management-based approach for determining the frequency of onsite reviews of
       sponsoring organizations; recommendation closed.

Recommendation 33: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should provide streamlined and more stringent sanctions for
noncompliance with any regulatory requirement. (Action: ECA, in coordination with L)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 34: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should implement and enforce written agreements in which
sponsors’ responsible officers and alternate responsible officers commit to deliver required
services, follow program regulations and Department of State guidance, and refrain from
prohibited practices. (Action: ECA, in coordination with L)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 35: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should implement an annual program audit requirement for
designated sponsors in every J visa program. (Action: ECA, in coordination with L)

       Pre-CFR Status: Open

       CFR Findings: Reissued as Recommendation CFR 10.

Recommendation 36: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Consular Affairs, the Office of the Legal Adviser, and the Bureau of Legislative
Affairs, should submit a proposal to the Deputy Secretary for Resources and Management to
determine the viability of ending or transferring its current responsibilities for the alien
physician, au pair, intern, teacher, and trainee programs to the Department of Labor. (Action:
ECA, in coordination with CA, L, and H)

       Pre-CFR Status: Open

                                       25
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       CFR Findings: Reissued as recommendation CFR 11.

Recommendation 37: The Bureau of Consular Affairs, in coordination with the Bureau of
Educational and Cultural Affairs, should prepare a report reflecting how its recommendations to
the Department of Homeland Security concerning Section 212(e) waiver requests properly
balance the intent of the Fulbright-Hays Act with other relevant policy considerations. (Action:
CA, in coordination with ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed acceptable alternate compliance;
       recommendation closed.

Recommendation 38: The Bureau of Educational and Cultural Affairs should establish a
process to refer credible allegations of criminal activity to the Bureau of Diplomatic Security, the
Office of Inspector General’s Office of Investigations, or to an appropriate law enforcement
organization. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 39: The Office of the Legal Adviser, in coordination with the Bureau of
Educational and Cultural Affairs and the Bureau of Diplomatic Security, should determine
whether host family names can be checked against law enforcement databases and, if so, develop
a procedure for such checks. (Action: L, in coordination with ECA and DS)

       Pre-CFR Status: Open

       CFR Findings: Reissued as Recommendation CFR 13.

Recommendation 40: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should significantly limit the number of sponsors and participants in
the Summer Work Travel program pending implementation of major regulatory change that will
allow more rigorous oversight of the designation, management, and sanctioning of program
sponsors. (Action: ECA, in coordination with L)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 41: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Resource Management (Bureau of Budget and Policy] should implement a procedure
for gathering relevant information on its designated sponsors from other Department of State and
U.S. Government entities. (Action: ECA, in coordination with BP)

       Pre-CFR Status: Open

                                       26
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

       CFR Findings: Revised and reissued as Recommendation CFR 12.

Recommendation 42: The Bureau of Educational and Cultural Affairs should implement a
procedure under which a sanction in any program triggers an on-site review of all other programs
under that designated sponsor's purview. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 43: The Bureau of Educational and Cultural Affairs should implement clear
written procedures and standards for reviewing sponsor requests to adjust DS-2019 allotments.
(Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 44: The Bureau of Educational and Cultural Affairs should implement a
substantive training program on laws and regulations for all staff charged with communicating
with sponsors or monitoring sponsor compliance. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 45: The Bureau of Educational and Cultural Affairs should restructure the
Office of Private Sector Exchange, combining the staff responsible for sponsor designation,
program management, and compliance activities for each J visa category into a single unit.
(Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team reviewed and accepted as alternative implementation
       ECA’s reorganization of the Office of Private Sector Exchange, including the creation of
       an Office of Program Administration; recommendation closed.

Recommendation 46: The Bureau of Educational and Cultural Affairs should move staff of the
Interagency Working Group on U.S. Government-Sponsored International Exchanges and
Training to the Office of Policy and Evaluation within the Bureau of Educational and Cultural
Affairs. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.




                                      27
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 47: The Bureau of Educational and Cultural Affairs should transfer its
responsibility for 212(e) waiver requests from the Office of Private Sector Exchange to the
Office of Policy and Evaluation. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 48: The Bureau of Educational and Cultural Affairs should transfer public-
private partnership initiatives to the Office of Policy and Evaluation. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 49: The Bureau of Educational and Cultural Affairs should move the
management of individual grants into the Grants Division of the Executive Office. (Action:
ECA)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 50: The Bureau of Educational and Cultural Affairs should implement
standard procedures for awarding individual grants. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 51: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Legislative Affairs, should increase the limitation on the grants budget for
organizations with less than 4 years' experience from $60,000 to at least $130,000.

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 52: The Bureau of Educational and Cultural Affairs should implement
procedures that require grants officers to use the DS-4012 Foreign Assistance File form and
maintain complete paper files. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 53: The Bureau of Educational and Cultural Affairs should implement
policies that require a new designation memo from the warranted grants officer before the
                                       28
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

program office may transfer responsibility for a grant to a new grants officer representative.
(ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 54: The Bureau of Administration should issue guidance on how to
implement the new closeout requirements for all grants when the grantee fails to provide all
required documents. (Action: A)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 55: The Bureau of Educational and Cultural Affairs should implement a plan
to close out outstanding grants that are more than 24 months past their end date. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 56: The Bureau of Educational and Cultural Affairs should eliminate the
Customer Support Division and reassign its staff members to other executive office divisions.
(Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 57: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of Civil Rights, should implement a revitalized Equal Employment Opportunity program
throughout the bureau that includes a front office declaration of commitment, the appointment
and training of new Equal Employment Opportunity counselors, and training for managers and
employees. (Action: ECA, in coordination with S/OCR)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 58: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of Civil Rights, should adopt appropriate portions of the model Equal Employment
Opportunity program developed by the Equal Employment Opportunity Commission. (Action:
ECA, with S/OCR)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.
                                       29
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 59: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Administration, should implement a training plan for all contracting officer
representatives that includes certification under the revised policy of the Office of Management
and Budget. (Action: ECA, in coordination with A)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 60: The Bureau of Administration, in coordination with the Bureau of
Educational and Cultural Affairs, should reexamine the possible causes of the discomfort and
health concerns of employees stationed on the lowest levels of the facility used by the Bureau of
Educational and Cultural Affairs and implement actions to correct them. (Action: A, in
coordination with ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 61: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should submit a proposal to the Under Secretary for Public
Diplomacy and Public Affairs for approval to make the accident and sickness program for
exchanges more cost effective. (Action: ECA, in coordination with L)

       Pre-CFR Status: Open

       CFR Findings: Reissued as Recommendation CFR 15.

Recommendation 62: The Bureau of Educational and Cultural Affairs should appoint a
committee to review provisions in the Foreign Affairs Manual relating to its programs and
organization, report in writing what needs to be revised or added, and submit the findings for
approval and publication in the Foreign Affairs Manual. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 63: The Bureau of Educational and Cultural Affairs should provide
information technology personnel with a revised organization chart outlining the reporting
structure for the information technology staff transferred to the bureau's executive office.
(Action: ECA)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 64: The Bureau of Educational and Cultural Affairs should define those roles
and responsibilities the bureau will handle alone and those it will coordinate with the Bureau of
                                       30
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

International Information Programs and disseminate this information among information
technology staff members. (Action: ECA)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 65: The Bureau of Educational and Cultural Affairs should provide all
information technology staff transferred to the Executive Office with revised notification of
personnel action forms and position descriptions that are accurate, up to date, and reflect newly
defined roles and responsibilities. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: Reissued as Recommendation CFR 5.

Recommendation 66: The Bureau of Educational and Cultural Affairs should update contracts
supporting information technology functions to reflect the appropriate contracting officer
representative and scope of services, including identification of areas of duplication and potential
consolidation as needed. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 67: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of International Information Programs, should implement a plan for handling the cost of
information technology support services under the shared services structure. (ECA, in
coordination with IIP)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 68: The Bureau of Educational and Cultural Affairs should disseminate a
strategic plan with long-term goals for the information technology division within the Executive
Office. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: Reissued as Recommendation CFR 4.

Recommendation 69: The Bureau of Educational and Cultural Affairs should define and
disseminate the roles and responsibilities of the Web team and program offices for Web
management to include, at a minimum, content development, editing, and approval. (Action:
ECA)

       Pre-CFR Status: Open
                                       31
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 70: The Bureau of Educational and Cultural Affairs should implement a
standardized clearance process for Web site content management to be used by each program
office and the Web team. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 71: The Bureau of Educational and Cultural Affairs should designate a main
point of contact within each program office to coordinate with the Web team and its respective
program personnel for Web site content management, (Action: ECA)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 72: The Bureau of Educational and Cultural Affairs should implement a
schedule of monthly meetings between all program offices and the Web team to coordinate the
Web site redesign effort, including the redesign approach and schedules. (Action: ECA)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 73: The Bureau of Educational and Cultural Affairs should define the roles
and responsibilities of the special advisor for innovation within the Public Affairs and Strategic
Communication office so that the advisor's efforts do not duplicate those of the bureau's Web
team. (Action: ECA)

       Pre-CFR Status: Closed

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 74: The Bureau of Educational and Cultural Affairs should coordinate and
manage all systems and applications development activities outside the Executive Office through
the information technology division. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: Reissued as Recommendation CFR 6.

Recommendation 75: The Bureau of Educational and Cultural Affairs should implement and
enforce the systems development life cycle process for all bureau systems and application s to
include, at a minimum, the identification of user and system requirements and consultation with

                                       32
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

stakeholders and the review by management of deliverables at each control gate throughout the
process. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: Reissued as Recommendation CFR 7.

Recommendation 76: The Bureau of Educational and Cultural Affairs should incorporate steps
into the systems development life cycle process that require participation by all relevant parties
to determine the development and testing schedule of systems and applications. (Action: ECA)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 77: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Information Resource Management, should evaluate the cooling and humidity
conditions of the computer room and initiate corrective steps immediately. (Action: EC, in
coordination with IRM)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 78: The Bureau of Diplomatic Security should conduct a physical security
survey of SA-5 to identify and correct deficiencies in security standards for domestic leased
buildings. (Action: DS)

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.




                                       33
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


APPENDIX II: Status of 2012 Inspection Informal
Recommendations
Informal Recommendation 1: The Bureau of Educational and Cultural Affairs should take into
account in its resource use analysis the results of recently initiated planning efforts within the
bureau, as well as data from nonbureau sources, and develop standard procedures for cooperating
with embassies and regional bureaus on resource planning.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 2: The Bureau of Educational and Cultural Affairs should sponsor
workshops for both Civil Service and Foreign Service supervisors to improve understanding of
performance review preparation in both systems.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 3: The Bureau of Educational and Cultural Affairs should
implement a policy to upgrade Civil Service staff opportunities through support for short-and
long-term excursion tours.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 4: The Bureau of Educational and Cultural Affairs should issue a
Department Notice on the role of its Policy unit, specifying the responsibilities of and contact
information for each staff member.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 5: The Bureau of Educational and Cultural Affairs should use the
process of preparing its next strategic planning request to set clearer priorities, better measure
performance, and increase coordination.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 6: The Bureau of Educational and Cultural Affairs should
formulate and implement goals for alumni engagement, a strategy to achieve these goals, and
criteria to prioritize resource allocation.
                                        34
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 7: The Bureau of Educational and Cultural Affairs should work
with the Interagency Working Group on U. S. Government-Sponsored International Exchanges
and Training to implement a strategy that incorporates exchange participants from all U.S.
Government agencies into its work.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 8: The Bureau of Educational and Cultural Affairs should work
with the Office of the Under Secretary for Management to establish procedures so that the
Fulbright Scholarship Board maintains a full complement of members.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 9: The Bureau of Educational and Cultural Affairs should
implement a policy to include Fulbright Foreign Scholarship Board members in event
notifications to Fulbright program participants.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 10: The Bureau of Educational and Cultural Affairs should work
with the Office of the Under Secretary for Management to hire a temporary executive director to
strengthen the work of the Fulbright Foreign Scholarship Board until the arrival of the permanent
director in summer 2012.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 11: The Bureau of Educational and Cultural Affairs should increase
interaction between regional educational advising coordinators and embassy - or commissioned-
based advisers through more regional workshop video conferences.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.




                                       35
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: The Bureau of Educational and Cultural Affairs should review
its community college initiative program and implement changes that would make the program
more effective.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 13: The Bureau of Educational and Cultural Affairs should
reconsider plans to fill a vacant position in the Humphrey Fellowships and Institutional Linkages
branch in the Office of Global Educational Programs and instead redistribute staff workloads,
continue the branch's cross-training efforts, and allow the vacant position to be used elsewhere in
the bureau.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 14: The Bureau of Educational and Cultural Affairs should revise
work requirements of program coordinators in the Office of International Visitors to require their
support for projects of highest priority to the office as a whole instead of only to those in regional
branches.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 15: The Bureau of Educational and Cultural Affairs should assign an
employee in the Office of International Visitors to develop and maintain a "smart book" with
documents employees need to carry out their duties, including files, instructions, formats, and
other necessary information, and distribute it to all new employees on arrival.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 16: The Bureau of Educational and Cultural Affairs should work
with the Office of the Under Secretary for Management to hire a temporary executive director to
strengthen the work of the Fulbright Foreign Scholarship Board until the arrival of the permanent
director in summer 2012.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 17: The Bureau of Educational and Cultural Affairs should draft and
disseminate guidance with clear criteria for justification of the third and fourth exceptions to
competition.
                                        36
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 18: The Bureau of Educational and Cultural Affairs should include
an assessment of the risk level of each proposal and suggested grant requirements to mitigate any
identified risks before the Assistant Secretary approves the proposal.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 19: The Bureau of Educational and Cultural Affairs should design a
monitoring plan that details action to address any risks identified in the pre-award risk
assessment.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 20: The Bureau of Educational and Cultural Affairs should create a
mechanism for warranted grants officers to provide input for performance evaluations of grants
officer representatives.

       Pre-CFR Status: Open

       CFR Findings: Revised and reissued as formal Recommendation CFR 16.

Informal Recommendation 21: The Bureau of Educational and Cultural Affairs should send
grants officer representatives to refresher training or workshops annually.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 22: The Bureau of Educational and Cultural Affairs should
implement a plan to strengthen monitoring and evaluation processes before initiating a pilot
program for using option years.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 23: The Bureau of Educational and Cultural Affairs should create a
system whereby grants officer solicits written contributions from the grants officer representative
before creating a final evaluation report and closing a grant.

       Pre-CFR Status: Open
                                       37
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 24: The Bureau of Educational and Cultural Affairs should
implement a plan for the Human Resources and Support Services Divisions to clarify their work
processes and increase client understanding of administrative processes.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 25: The Bureau of Educational and Cultural Affairs should arrange
for all executive office service providers to receive customer service training.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 26: The Bureau of Educational and Cultural Affairs should
implement a feedback mechanism for providing interim responses to clients about the status of
their requests.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 27: The Bureau of Educational and Cultural Affairs should
implement a training program for all employees on the purposes and procedures for teleworking,
alternate work schedules, and job sharing.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 28: The Bureau of Educational and Cultural Affairs should
implement a bureau wide training plan tied to achieving its performance goals and mandate use
of individual development training plans to populate the overall training plan.

       Pre-CFR Status: Open

       CFR Findings: Revised and reissued as formal Recommendation CFR 17.

Informal Recommendation 29: The Bureau of Educational and Cultural Affairs should prepare
written and/or video orientation materials for new employees and, at least twice a year, offer new
employees a comprehensive introduction to the bureau with presentations by bureau leadership
and office directors.

       Pre-CFR Status: Open

                                       38
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 30: The Bureau of Educational and Cultural Affairs should designate
an office sponsor for each new staff member and develop an office-specific orientation program.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 31: The Bureau of Educational and Cultural Affairs should publicize
the awards program, including the rules and procedures for submitting nominations, and
encourage all managers and supervisors to nominate worthy employees throughout the bureau.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 32: The Bureau of Educational and Cultural Affairs should complete
the codification and dissemination of receiving procedures.

       Pre-CFR Status: Open

       CFR Findings: Revised and reissued as formal Recommendation CFR 18.

Informal Recommendation 33: The Bureau of Educational and Cultural Affairs should include
contracting officer representative responsibilities in the work requirements of employees who
perform the function.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.

Informal Recommendation 34: The Bureau of Educational and Cultural Affairs should meet
with its employees to discuss efforts to resolve building problems and address their health
concerns and invite representatives from the Bureau of Administration and the Office of Medical
Services to participate.

       Pre-CFR Status: Open

       CFR Findings: The CFR team confirmed implementation; recommendation closed.




                                      39
                         SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
